No.

IN THE

Supreme Court of the United States
DARLENE COLLINS, ET AL
v.
CHARLES W. DANIELS, ET AL

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

A. BLAIR DUNN

Counsel of Record
Western Agriculture,
Resource and Business
Advocates, LLP
400 Gold Ave SW,
Suite 1000
Albuquerque, NM 87102
abdunn@ablairdunn-esq.com

(505) 750-3060

CURRY & TAYLOR  202-393-4141

i
QUESTION(S) PRESENTED
Well before New Mexico’s history as a territory and a
state, wherein money bail or bail by sufficient sureties
was the primary and for a long period the exclusive
means of preserving the person’s (accused of a crime but
not yet convicted) innocence. Even before the Framing
and adoption of the Eighth Amendment, bail was
recognized as the tool to protect the idea that “liberty is
the norm and detention prior to trial is the carefully
limited exception” United States v. Salerno 48 U.S. 739,
755 (1987).
For decades in New Mexico, if not since before
statehood, monetary bail was the manner in which the
accused’s “right to freedom before conviction” by release
both prior to arraignment and prior to trial was
preserved. Stack v. Boyle, 342 U.S. 1, 4 (1951). In 2016 the
citizens of New Mexico, acting first through their
representative citizen legislature, and then at the ballot
box, reaffirmed the criminal justice system’s use of
monetary bail to protect the presumption of innocence
and an accused’s pretrial liberties. Unfortunately,
unsatisfied with the will of New Mexico’s citizens, in 2017,
the New Mexico Supreme Court adopted bail reform
policy, passed by the state of New Jersey through her
legislature, by rulemaking. Petitioners sought to address
the impacts to New Mexicans’ constitutional rights by
litigation in the Federal Court system, to which the
Respondents reacted to drive any criticism of them
forever from the courts by seeking and achieving
sanctions against one of the counsel that would dare
challenge their immunities or enter the political arena
they had already occupied.
1.
Was the application of legislative immunity
to actions of the New Mexico Courts to

ii
legislate policy outside of the authorities
granted to them by the New Mexico
Constitution or delegated to them by the
New Mexico Legislature proper, was the
application of judicial immunity to the nonadjudicatory actions of the New Mexico
Courts to adopt and administer rules
proper, and was the application of
sovereign immunity proper provided that
the District Court’s decision regarding the
Eighth Amendment and the Due Process
Clause was incorrect?
2.

Were the sanctions against one of the
attorney’s responsible for the initiation of
the litigation proper in light of this Court’s
decisions and decisions from other Courts of
Appeals?

iii
PARTIES TO THE PROCEEDING
Petitioners are Darlene Collins, Bail Bond
Association of New Mexico, Richard Martinez, Bill
Sharer, Craig Brandt, and Carl Trujillo. They were
plaintiffs in the District Court and plaintiffs-appellants in
the Court of Appeals.
Respondents are Charles W. Daniels, Edward L
Chavez, Petra Jimenez Maez, Barbara J. Vigil, and Judy
K. Nakamura, who are sued individually and in their
official capacity as Justices of the Supreme Court of New
Mexico; Nan Nash, who is sued individually and in her
official capacity as Chief Judge for the Second Judicial
District Court; Henry A. Alaniz, who is sued in his official
capacity as Chief Judge of the Bernalillo Metropolitan
Court; and Bernalillo County Board of County
Commissioners who are sued individually for actions
taken under the color of law. All of whom were
defendants in the District Court and defendants- appellees
in the Court of Appeals.
R ULE 29.6
Bail Bond Association of New Mexico has no
parent corporation and has issued no stock to any publicly
held corporation

iv
TABLE OF CONTENTS
Page
QUESTION(S) PRESENTED ........................................................... i
PARTIES TO THE PROCEEDING .................................................iii
OPINIONS BELOW ......................................................................... 7
JURISDICTION ............................................................................... 7
RELEVANT PROVISIONS INVOLVED ......................................... 7
STATEMENT ................................................................................ 19
REASONS FOR GRANTING THE PETITION ............................... 28
CONCLUSION ............................................................................... 47
APPENDIX
Circuit Court Decision ........................................................... 1a
District Court Order Granting Defendants’
Motions to Dismiss ............................................................... 65a
District Court Final Judgment ........................................ 122a
District Court Order Denying Plaintiffs’ Motion
for Preliminary Injunction............................................... 124a
Order Denying Rehearing ................................................. 149a
Appellants’ Opening Brief................................................. 151a
Appellee Brief...................................................................... 229a
Appellee Brief...................................................................... 243a
Appellants’ Reply Brief ..................................................... 311a
Appellants’ Petition For Panel Rehearing ..................... 344a

v
TABLE OF AUTHORITIES
Page
CASES
AID FOR WOMEN V. FOULSTON, 441 F.3D 1101
(10TH CIR. 2006) ..................................................................... 43
BAKER V. CARR, 369 U.S. 186, 229, (1962) ............................... 46
BARRY V. BARCHI, 443 U.S. 55 (1979)...................................... 44
EX PARTE YOUNG, 209 U.S. 123 (1908) ................................... 34
FOUCHA V. LOUISIANA, 504 U.S. 71, 81 (1992) ....................... 36
FREE ENTER. FUND V. PCAOB, 561 U.S. 477, 505
(2010)........................................................................................ 36
HERNANDEZ V. SESSIONS, 872 F.3D 976 (9TH CIR.
2017) ......................................................................................6, 37
HOLLAND V. ROSEN, 139 S. CT. 440, 202 L. ED. 2N
319 (2018) ................................................................................... 2
HOLLAND V. ROSEN, 895 F.3D 272 (3D CIR. 2018)...............2, 43
HUNT V. ROTH, 648 F.2D 1148, 1157......................................... 36
HUNT V. WASHINGTON STATE APPLE ADVERT.
COMM'N, 432 U.S. 333 (1977) ................................................. 44
JENNINGS V. RODRIGUEZ, 138 S. CT. 830, 863-64
(2018)........................................................................................ 20
KERR V. HICKENLOOPER, 824 F.3D 1207 (10TH CIR.
2016) ....................................................................................39, 45
KOWALSKI V. TESMER, 543 U.S. 125 (2004) ............................ 39
MARBURY V. MADISON, 5 U.S. 137, 174 (1803)........................ 36
MARENO V. ROWE, 910 F.2D 1043, 1047 (2ND CIR.
1990), CERT DENIED, 498 U.S. 1028 (1991) .......................... 40
MATHEWS V. ELDRIDGE, 424 U.S. 319, 334 (1976) ................. 37
MCCULLOUGH V. FINLEY, 907 F.3D 1324, 1331
(11TH CIR. 2018) ..................................................................... 33
MCDONALD V. CITY OF CHICAGO, 561 U.S. 742, 764
N.12 (2010) ..........................................................................35, 37
MEDINA V. CALIFORNIA, 505 U.S. 437, 446 (1992) ................. 36
MIRELES V. WACO, 502 U.S. 9, 11 (1991) ................................. 32
MUSCOGEE (CREEK) NATION V. PRUITT, 669 F.3D
1159, 1166 (10TH CIR. 2012) ................................................... 34
PIERCE V. SOC'Y OF THE SISTERS OF THE HOLY

vi
NAMES OF JESUS & MARY, 268 U.S. 510 (1925) ................. 44
PUGH V. RAINWATER, 572 F.2D 1053 (5TH CIR.
1978) (EN BANC).................................................................. 6, 36
SCHILB V. KUEBEL, 404 U.S. 357, 365 (1971) .......................... 37
SISTRUNK V. LYONS, 646 F.2D 64, 70 (3RD CIR. 1981) ........... 35
STACK V. BOYLE, 342 U.S. 1, 5(1951)............................... passim
STATE V. BROWN, 338 P.3D 1276, (N.M. 2014)........................... 1
SUPREME COURT OF VIRGINIA V. CONSUMERS
UNION OF U.S., INC., 466 U.S. 719, (1980)....................4, 6, 32
TENNEY V. BRANDHOVE, 341 U.S. 367, 378 (1951)................. 32
UNITED STATES V. BARBER, 140 U.S. 164, 167
(1891)........................................................................................ 38
UNITED STATES V. MOTLOW, 10 F.2D 657, 659 (7TH
CIR. 1926) ................................................................................ 36
UNITED STATES V. PERRY, 788 F.2D 100, 112 (3D
CIR. 1986) ................................................................................ 35
WALKER V. CITY OF CALHOUN, GA, 901 F.3D 1245,
1251 (11TH CIR. 2018)............................................................... 2
WALKER V. CITY OF CALHOUN, GA., 139 S. CT. 1446
(2019).......................................................................................... 2
WASHINGTON V. GLUCKSBERG, 521 U.S. 702, 721
(1997)........................................................................................ 37
WHITE V. GEN. MOTORS CORP., 908 F.2D 675, 683
(10TH CIR. 1990)................................................................ 39, 40
STATUTES
28 U.S.C. § 1254(a)........................................................................ 7
28 U.S.C. § 1291 ............................................................................ 8
28 U.S.C. § 1331 ............................................................................ 8
28 U.S.C. § 1343 ............................................................................ 9
42 U.S.C. § 1983 ........................................................................ 3, 9
42 U.S.C. § 1988 .......................................................................... 10
N.J.S.A. § 2a:162-16 through 18................................................ 22
N.M. Stat. Ann. § 38-1-1 ................................................... passim

vii
CONST. PROVISIONS
N.M. Const. art. II...................................................................... 21
U.S. Const. amend. VIII ........................................................... 35
RULES
NMRA Rule 5-401 .......................................................... 22, 23, 24
OTHER AUTHORITIES
Donalds B. Verrilli, Jr., The Eighth Amendment and the Right
to Bail: Historical Perspectives, 82 Colum. L. Rev. 328, 352
(1982) ............................................................................................ 19

1
PETITION FOR WRIT OF CERTIORARI
Bail by sufficient sureties has been a fixture in
the New Mexico criminal justice system since statehood
and before. There is no argument against the
fundamental concept that bail’s protection of the
presumption of innocence is foundational to our AngloAmerican criminal justice system. That presumption of
innocence is the very cornerstone upon which the entire
system is built, its origins trace back at least to the
Magna Carta, if not before, when that foundational
document states that “no Freeman shall be taken or
imprisoned, or be disseised of his Freehold or Liberties,
or free Customs or be outlawed, or exiled, or any
otherwise destroyed, nor will We not pass upon him
nor condemn him, but by lawful judgment of his Peers
or by the Law of the Land.” Magna Carta, Ch. 39. In A.
Howard, Magna Carta Text and Commentary 43(1964).
Bail to protect against the unjust deprivation of liberty
fundamental to the presumption of innocence prior to
trial has always been measured against the
government’s interest in mitigating the risk of nonappearance at trial, by not having “bail set at a figure
higher than an amount reasonably calculated to fulfill
this purpose.” Stack v. Boyle, 342 U.S. 1, 5(1951).
Prior to 2017 this system represented a
constitutionally permissible, largely functioning,
system in New Mexico. However, as the result of the
case of State v. Brown, 338 P.3d 1276, (N.M. 2014), a
case concerning a man without financial means who was
incarcerated for a great period of time pretrial because
he could not afford the bond set for his pretrial release,
New Mexicans were convinced first through their
Legislature and then later at the ballot box to adopt
additional protections against excessive bail. Arguably

2
the Brown case was already in violation of the Eighth
Amendment, but at the urging of at least one activist
New Mexico Supreme Court Justice, who notoriously
lobbied for the change in policy in the Legislature, a
compromise was struck. That compromise resolved by
the Legislature and later overwhelmingly adopted by
the voters represents the rare occurrence of marked
improvement in the protections found and adopted into
a state constitution. The added language serves to
increase the protections against excessive bail by
allowing persons without financial means to file a
motion to be excused from monetary conditions of bail.
It is undersigned counsel’s strong opinion that the
compromise adopted by the people of New Mexico
strikes a near perfect balance between the tension
created by the New Jersey system at issue in Holland
v. Rosen, 895 F.3d 272(3d Cir. 2018), cert. denied,
Holland v. Rosen, 139 S. Ct. 440, 202 L. Ed. 2n 319
(2018), and the system at issue in Walker v. City of
Calhoun, GA, 901 F.3d 1245, 1251 (11th Cir. 2018), cert.
denied sub nom. Walker v. City of Calhoun, Ga., 139 S.
Ct. 1446 (2019). The new language now found in the
New Mexico Constitution allows a person without
financial means to file a motion to have the Court
release them on non-monetary conditions.
Unfortunately, New Mexicans never got a real
chance to test their legislative experiment. Before the
ink was barely dry the New Mexico Supreme Court
undertook to impose the New Jersey experiment on the
New Mexico Court system by legislating a similar
policy change through the passage of rules, just months
after the 2016 election, on July 1, 2017. Petitioner
Darlene Collins’ case represents the novel situation
where government officials tinkering with a
constitutionally sound experiment after its adoption

3
have blown up the experiment to the constitutionally
prohibited real-world detriment of New Mexicans.
Instead of a system designed to provide the least
restrictive and least intrusive means of mitigating
flight risk measured on an individual’s circumstance on
a case by case basis; New Mexicans must now all suffer
liberty-restrictive, non-monetary conditions of release
treating them as presumptively guilty until trial even
though a less intrusive monetary bail release is still
available under their State Constitution. Thus, New
Mexicans face the imposition of a system based upon a
policy vetted and rejected by their Legislature, only to
be instead legislated by a Court not elected for that
purpose, and from which the only higher power to
which they may appeal is this Court.
And without question, Petitioners could have
begun their quest to remedy the horrible juxtaposition
that New Mexico finds herself to be in by petitioning
this Court under the Court’s original jurisdiction. The
horrible juxtaposition of a state’s highest court
legislating a policy that violates the state’s citizen’s
constitutionally protected liberties by exceeding the
powers granted to them under the state constitution or
delegated to them by the state legislature is of course,
unbelievably rare; no doubt warranting U.S. Supreme
Court review, but is also undeniably subject to review
in the lower Federal Courts pursuant to the
Fourteenth Amendment, 42 U.S.C. § 1983 and the
established pendant jurisdiction of the Federal District
Courts. Petitioners, thus, believed that review of the
New Mexico Supreme Court’s actions was
appropriately originated in the Federal District of New
Mexico because upon review before filing the Justices
of the New Mexico Supreme Court were subject to an
action under 42 U.S.C. § 1983 for their actions, acting

4
under the color of law, that deprived New Mexico
citizens of their rights guaranteed by the Eighth
Amendment, and the Due Process Clause of the
Fourteenth Amendment for which the Respondents
enjoyed no judicial immunity as their act was not
adjudicatory, and for which the Justices enjoyed no
legislative immunity as their act was in excess of the
non-exclusive legislative authority delegated to them
by the Legislature under NMSA 1978 § 38-1-1, which is
distinguishable from this Court’s holding in Supreme
Court of Virginia v. Consumers Union of U.S., Inc.,
466 U.S. 719, (1980).
Additionally, in New Mexico, for many decades if
not over a century, even following the 2016
Constitutional Amendment, the citizens arrested for
bailable crime enjoyed the substantive right to post a
jailhouse bond according to a bail schedule to avoid prearraignment incarceration. That long-standing liberty
evaporated just hours after Petitioner Collins’ arrest
the night of June 30, 2017 as a result of the enactment
of the new Supreme Court rules at midnight July 1,
2017. Plaintiff Collins’ case is highly demonstrative of
the impact that this unconstitutional system had on her
substantive rights as a litigant in the New Mexico
Court system. Had Petitioner’s arrest occurred but a
few hours earlier, the bond that her family had secured
from one of the members of Petitioner Bail Bond
Association of New Mexico (“BBANM”) would have
secured her freedom so that she could have avoided 5
days
of
pre-arraignment
incarceration
that
unnecessarily almost cost her life. Such a needless and
dangerous deprivation of pretrial liberty has never
been countenanced in New Mexico before the New
Mexico Supreme Court’s efforts to legislate bail reform.

5
The District Court, however, found no
constitutional infirmity, nor any inconsistency with
statute with the New Mexico Supreme Court’s actions,
also incorrectly deciding that immunities applied, and
standing was lacking which conflicts with the
jurisprudence from this Court and the Tenth Circuit.
The decision went so far afield regarding immunities
and standing that the District Court used it as a basis
to single out and sanction one of the counsel that had
co-signed the pleadings as lacking a reasonable
objective basis for filing suit despite dozens of pages of
briefing signed by multiple competent attorneys that
explained not just a reasonable objective basis to
extend the law, but a colorable argument as to why the
law already supported the position of Plaintiffs on
standing, immunities and the merits of the case.
Despite some cursory acknowledgment that
there may be issues of constitutional magnitude in the
New Mexico Supreme Court’s rules, the Tenth Circuit,
none the less, affirmed1 the rulings of the District Court
on the basis of standing and immunities to further
shield the New Mexico Judiciary from accountability
for constitutional violations by avoiding the merits by
electing to “not address the merits of Collins’ claims
that the 2017 Rules and the Arnold Tool violate the
Eighth and Fourteenth Amendments” Pet.App. 24a.
The Tenth’s decision on standing, immunities
and sanctions conflicts with decisions of this Court,
other decisions from the Tenth Circuit, and other
circuits serving to insulate the New Mexico Judiciary
The Tenth Circuit repeatedly penalized the Petitioners for not
providing sufficient argument on several issues. However,
Petitioners requested a word extension in order to fully brief all
issues which was largely denied.
1

6
from accountability for the propriety of their actions as
well as shielding their promulgated rules from scrutiny
as to their constitutionality, leaving this Court as the
final hope to escape judicial tyranny. The Tenth
Circuit’s decision cannot be allowed to stand without
doing severe damage to the criminal justice system and
the public’s faith in the judiciary.
The Tenth Circuit’s avoidance of the merits
allows a system to stand that conflicts with this Court’s
decision in Salerno, that when a state seeks to ensure a
defendant’s return to trial that “bail must be set by a
court a sum designed to ensure that goal, and no more”.
Id at 755. In this regard the jurisprudence that the
Tenth Circuit seeks to insulate the New Mexico
Supreme Court’s rules from being weighed against is
crystal clear that the government may only achieve its
legitimate interests by using the least restrictive
mechanism to do so, as not to unnecessarily restrict the
pretrial liberty of the presumptively innocent. See, e.g.,
Walker v. City of Calhoun; Hernandez v. Sessions, 872
F.3d 976 (9th Cir. 2017); Pugh v. Rainwater, 572 F.2d
1053 (5th Cir. 1978) (en banc).
The Tenth Circuit’s decision serves to cut off any
chance for New Mexico’s citizens to hold their state
judiciary accountable and to protect their rights from
destruction by the State acting through the Judiciary.
This Court’s review thus becomes imperative, to say
nothing of the unintended consequences of increased
crime that New Mexicans very arguably face as a result
of the rules passed by the New Mexico Supreme Court.
This Court should grant review to 1) reaffirm the
“right to bail” by the least restrictive means to
preserve the “presumption of innocence” Stack, 342
U.S. at 4; 2) restore the faith in the New Mexico
Judiciary by returning them inside of their

7
constitutionally granted authority, and 3) restore the
protections of the right to petition the Courts for
redress of grievances by reversing the sanctions
against an attorney that undertakes the unpopular task
of attempting to hold the judiciary accountable for
political and policy making actions outside of the State
Judiciary’s adjudicatory or legislative authority.
OPINIONS BELOW
The Tenth Circuit’s opinion is reported at 916 F.3d
1302. Pet.App.1a-37a. (Petition for Rehearing En Banc
denied, April 1, 2019) The unpublished Order of the
United States District Court for the District of New
Mexico in Collins et al., v. Daniels et al., (Civil Action
No. 17-00776-RJ-KK) dated December 11, 2017
granting Defendants’ Motion to Dismiss and denying
Plaintiffs’ Motion to Amend. Pet.App.65a-122a.
JURISDICTION
The Tenth Circuit’s opinion affirming the lower
court’s decision issued on February 25, 2019, and the
denial of the Petition for Rehearing En Banc issued
April 1, 2019. This Court has jurisdiction under 28
U.S.C. § 1254(a).
RELEVANT PROVIDSIONS INVOLVED
U.S. Constitution, Article III, Section 1:
The Judicial power of the United States shall be
vested in one Supreme Court, and in such
inferior Courts as the Congress may from time
to time ordain and establish…

8
U.S. Constitution – Amendment 8:
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.
U.S. Constitution – Amendment 14:
1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
28 U.S.C. Section 1291
The courts of appeals (other than the United
States Court of Appeals for the Federal Circuit)
shall have jurisdiction of appeals from all final
decisions of the district courts of the United
States … except where a direct review may be
had in the Supreme Court.
28 U.S.C. Section 1331
The District Courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United
States.

9
28 U.S.C. Section 1343
(a) The district courts shall have original
jurisdiction of any civil action authorized by law
to be commenced by any person: 1) to recover
damages for injury to his person or property, or
because of the deprivation of any right or
privilege of a citizen of the United States, 2) to
redress the deprivation, under color of any State
law, statute, ordinance, regulation, custom or
usage, of any right, privilege or immunity
secured by the Constitution of the United States
or by any Act of Congress providing for equal
rights of citizens or of all persons within the
jurisdiction of the United States; and 3) to
recover damages or to secure equitable or other
relief under an Act of Congress providing for the
protection of civil rights…
42 U.S.C. Section 1983
Every person who, under color of any statue,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or
other proper proceeding for redress, except that
in any action brought against a judicial officer for
an act or omission taken in such officer’s judicial

10
capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or
declaratory relief was unavailable. For the
purposes of this section, an Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District
of Columbia.
42 U.S.C. Section 1988
The jurisdiction in civil and criminal matters
conferred on the district courts by the provisions
of titles 13, 24 and 70 of the Revised Statues for
the protection of all persons in the United States
in their civil rights, and for their vindication,
shall be exercised and enforced in conformity
with the laws of the United States so far as such
laws are suitable to carry the same into effect;
but in all cases where they are not adapted to
the object, or are deficient in the provisions
necessary to furnish suitable remedies and
punish offenses against law, the common law, as
modified and changed by the constitution and
statutes of the State wherein the court having
jurisdiction of such civil or criminal cause is held,
so far as the same is not inconsistent with the
constitution and laws of the United States, shall
be extended to and govern the said courts in the
trial and disposition of the cause, and if it is of a
criminal nature, in the infliction of punishment
on the party found guilty.

11
N.M. Constitution, Article II, Section 13
All persons shall, before conviction, be bailable
by sufficient sureties, except for capital offenses
when the proof is evident or the presumption
great and in situations in which bail is
specifically prohibited by this section. Excessive
bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishment
inflicted.
Bail may be denied by a court of record pending
trial for a defendant charged with a felony if the
prosecuting authority requests a hearing and
proves by clear and convincing evidence that no
release conditions will reasonably protect the
safety of any other person or the community. An
appeal from an order denying bail shall be given
preference over all other matters.
A person who is not detainable on grounds of
dangerousness nor a flight risk in the absence of
bond and is otherwise eligible for bail shall not
be detained solely because of financial inability
to post a money or property bond. A defendant
who is neither a danger nor a flight risk and who
has a financial inability to post a money or
property bond may file a motion with the court
requesting relief from the requirement to post
bond. The court shall rule on the motion in an
expedited manner.

12
N.M. Stat. Ann. § 38-1-1 (West)
A. The supreme court of New Mexico shall, by
rules promulgated by it from time to time,
regulate pleading, practice and procedure in
judicial proceedings in all courts of New Mexico
for the purpose of simplifying and promoting the
speedy determination of litigation upon its
merits. Such rules shall not abridge, enlarge or
modify the substantive rights of any litigant.
B. The supreme court shall cause all rules to be
printed and distributed to all members of the bar
of the state and to all applicants, and no rule
shall become effective until thirty days after it
has been so printed and distributed.
NMRA, Rule 5-401
A. Hearing.
(1) Time. If a case is initiated in the district
court, and the conditions of release have not
been set by the magistrate or metropolitan
court, the district court shall conduct a hearing
under this rule and issue an order setting the
conditions of release as soon as practicable, but
in no event later than
(a) if the defendant remains in custody, three (3)
days after the date of arrest if the defendant is
being held in the local detention center, or five
(5) days after the date of arrest if the defendant
is not being held in the local detention center; or

13
(b) arraignment, if the defendant is not in
custody.
(2) Right to counsel. If the defendant does not
have counsel at the initial release conditions
hearing and is not ordered released at the
hearing, the matter shall be continued for no
longer than three (3) additional days for a
further hearing to review conditions of release,
at which the defendant shall have the right to
assistance of retained or appointed counsel.
B. Right to pretrial release; recognizance or
unsecured appearance bond. Pending trial,
any defendant eligible for pretrial release under
Article II, Section 13 of the New Mexico
Constitution, shall be ordered released pending
trial on the defendant's personal recognizance or
upon the execution of an unsecured appearance
bond in an amount set by the court, unless the
court makes written findings of particularized
reasons why the release will not reasonably
ensure the appearance of the defendant as
required. The court may impose non-monetary
conditions of release under Paragraph D of this
rule, but the court shall impose the least
restrictive condition or combination of conditions
that will reasonably ensure the appearance of
the defendant as required and the safety of any
other person or the community.
C. Factors to be considered in determining
conditions of release.. In determining the least
restrictive conditions of release that will
reasonably ensure the appearance of the

14
defendant as required and the safety of any
other person and the community, the court shall
consider any available results of a pretrial risk
assessment instrument approved by the
Supreme Court for use in the jurisdiction, if any,
and the financial resources of the defendant. In
addition, the court may take into account the
available information concerning
(1) the nature and circumstances of the offense
charged, including whether the offense is a crime
of violence or involves alcohol or drugs;
(2) the weight of the evidence against the
defendant;
(3) the history and characteristics of the
defendant, including
(a) the defendant's character, physical and
mental condition, family ties, employment, past
and present residences, length of residence in
the community, community ties, past conduct,
history relating to drug or alcohol abuse,
criminal history, and record concerning
appearance at court proceedings; and
(b) whether, at the time of the current offense or
arrest, the defendant was on probation, on
parole, or on other release pending trial,
sentencing, or appeal for any offense under
federal, state, or local law;
(4) the nature and seriousness of the danger to
any person or the community that would be
posed by the defendant's release;

15
(5) any other facts tending to indicate the
defendant may or may not be likely to appear as
required; and
(6) any other facts tending to indicate the
defendant may or may not commit new crimes if
released.
D. Non-monetary conditions of release. In its
order setting conditions of release, the court
shall impose a standard condition that the
defendant not commit a federal, state, or local
crime during the period of release. The court
may also impose the least restrictive
particularized condition, or combination of
particularized conditions, that the court finds
will reasonably ensure the appearance of the
defendant as required, the safety of any other
person and the community, and the orderly
administration of justice, which may include the
condition that the defendant
(1) remain in the custody of a designated person
who agrees to assume supervision and to report
any violation of a release condition to the court,
if the designated person is able reasonably to
assure the court that the defendant will appear
as required and will not pose a danger to the
safety of any other person or the community;
(2) maintain employment, or, if unemployed,
actively seek employment;
(3) maintain or commence an educational
program;
(4) abide by specified restrictions on personal
associations, place of abode, or travel;

16
(5) avoid all contact with an alleged victim of the
crime or with a potential witness who may
testify concerning the offense;
(6) report on a regular basis to a designated
pretrial services agency or other agency
agreeing to supervise the defendant;
(7) comply with a specified curfew;
(8) refrain from possessing a firearm, destructive
device, or other dangerous weapon;
(9) refrain from any use of alcohol or any use of
an illegal drug or other controlled substance
without a prescription by a licensed medical
practitioner;
(10) undergo available medical, psychological, or
psychiatric treatment, including treatment for
drug or alcohol dependency, and remain in a
specified institution if required for that purpose;
(11) submit to a drug test or an alcohol test on
request of a person designated by the court;
(12) return to custody for specified hours
following release for employment, schooling, or
other limited purposes;
(13) satisfy any other condition that is
reasonably necessary to ensure the appearance
of the defendant as required and the safety of
any other person and the community.
E. Secured bond. If the court makes findings of
the reasons why release on personal
recognizance or unsecured appearance bond, in
addition to any non-monetary conditions of
release, will not reasonably ensure the
appearance of the defendant as required, the

17
court may require a secured bond for the
defendant's release.
(1) Factors to be considered in setting secured
bond.
(a) In determining whether any secured bond is
necessary, the court may consider any facts
tending to indicate that the particular defendant
may or may not be likely to appear as required.
(b) The court shall set secured bond at the lowest
amount necessary to reasonably ensure the
defendant's appearance and with regard to the
defendant's financial ability to secure a bond.
(c) The court shall not set a secured bond that a
defendant cannot afford for the purpose of
detaining a defendant who is otherwise eligible
for pretrial release.
(d) Secured bond shall not be set by reference to
a predetermined schedule of monetary amounts
fixed according to the nature of the charge.
(2) Types of secured bond. If a secured bond is
determined necessary in a particular case, the
court shall impose the first of the following types
of secured bond that will reasonably ensure the
appearance of the defendant.
(a) Percentage bond. The court may require a
secured appearance bond executed by the
defendant in the full amount specified in the
order setting conditions of release, secured by a
deposit in cash of ten percent (10%) of the
amount specified. The deposit may be returned
as provided in Paragraph M of this rule.

18
(b) Property bond. The court may require the
execution of a property bond by the defendant or
by unpaid sureties in the full amount specified in
the order setting conditions of release, secured
by the pledging of real property in accordance
with Rule 5-401.1 NMRA.
(c) Cash or surety bond. The court may give the
defendant the option of either
(i) a secured appearance bond executed by the
defendant in the full amount specified in the
order setting conditions of release, secured by a
deposit in cash of one hundred percent (100%) of
the amount specified, which may be returned as
provided in Paragraph M of this rule, or
(ii) a surety bond executed by licensed sureties
in accordance with Rule 5-401.2 NMRA for one
hundred percent (100%) of the full amount
specified in the order setting conditions of
release.
F. Order setting conditions of release;
findings regarding secured bond.
(1) Contents of order setting conditions of
release. The order setting conditions of release
shall
(a) include a written statement that sets forth all
the conditions to which the release is subject, in
a manner sufficiently clear and specific to serve
as a guide for the defendant's conduct; and
(b) advise the defendant of
(i) the penalties for violating a condition of
release, including the penalties for committing
an offense while on pretrial release;

19
(ii) the consequences for violating a condition of
release, including the immediate issuance of a
warrant for the defendant's arrest, revocation of
pretrial release, and forfeiture of bond; and
(iii) the consequences of intimidating a witness,
victim, or informant or otherwise obstructing
justice.
(2) Written findings regarding secured bond. The
court shall file written findings of the
individualized facts justifying the secured bond,
if any, as soon as possible, but no later than two
(2) days after the conclusion of the hearing.
G. Pretrial detention. If the prosecutor files a
motion for pretrial detention, the court shall
follow the procedures set forth in Rule 5-409
NMRA.
STATEMENT
A. History of Bail in the United States of
America and in New Mexico.
Since at least the Magna Carta of 1215, bail has
resolved the tension of the presumption of innocence
for the accused against the government’s interest in
ensuring their return to stand trial by answering the
“vexing question: what is to be done with accused,
whose guilt has not been proven in the ‘dubious
interval’… between arrest and final adjudication.”
Donalds B. Verrilli, Jr., The Eighth Amendment and
the Right to Bail: Historical Perspectives, 82 Colum. L.
Rev. 328, 352 (1982). New Mexico has historically
answered this question even earlier in the criminal

20
justice process by allowing the accused to avoid
incarceration even before arraignment by posting a
jailhouse bond based upon a schedule for many
decades. That schedule was based upon a monetary
value ascribed to the event the person was accused of
committing. New Mexico’s decades old system was in
this regard very similar to the system that was
recently presented for review to this Court and which
this Court declined to hear. See Walker v. City of
Calhoun. That is not to say that the State of New
Mexico did not have cases that ran afoul of the Eighth
Amendment’s prohibition of excessive bail and of this
Court’s holding that “bail must be set by a Court at a
sum designed to ensure [the defendant’s return for
trial], and no more.” Salerno at 755. However, New
Mexico’s statutory history reflects a system identical
to the vast majority of state constitutions, wherein a
protection of a right to bail by sufficient sureties does
work. See Jennings v. Rodriguez, 138 S. Ct. 830, 863-64
(2018); Verrilli 351. Therefore, a system more than
passing constitutional muster was present in New
Mexico for decades that provided the “fixing of bail for
any individual defendant [was] based upon standards
relevant to the purpose of assuring the presence of
that defendant.” Stack 342 U.S. at 5. And until the case
of State v. Brown, the money bail system remained
largely successful at settling the amount of sufficient
surety or money bail at an amount that was not
“excessive” – i.e. “higher than…reasonably calculated
to” ensure the accused’s appearance at arraignment or
trial. Stack 342 U.S. at 5.
However, the Brown case, in addition to being
resolved correctly on the existing law, ostensibly
spawned a movement in New Mexico of arguably pure
intentions, to increase the protection of the

21
presumption of innocence for those without financial
means by ensuring pretrial release on non-monetary
conditions. This noble effort to add additional
protection against the denial of bail by setting
excessive bail in a monetary sum resulted in legislative
deliberation and compromise that did not fully adopt
the model proposed mirroring the legislation passed in
New Jersey but resulted in the addition of the
following language to the New Mexico Constitution:
A person who is not detainable on grounds of
dangerousness nor a flight risk in the absence of
bond and is otherwise eligible for bail shall not
be detained solely because of financial inability
to post a money or property bond. A defendant
who is neither a danger nor a flight risk and who
has a financial inability to post a money or
property bond may file a motion with the court
requesting relief from the requirement to post
bond. The court shall rule on the motion in an
expedited manner.
N.M. Const. art. II, § 13
However, unsatisfied with the legislative
compromise adopted by the voters, the New Mexico
Supreme Court proceeded to rule-making and
ultimately adopted the substantive policy that had
been passed by the New Jersey Legislature. Notably,
the rules adopted by the New Mexico Supreme Court
contain no provision for the filing of a motion reflecting
the legislative will of New Mexicans adopting the
amendment to the New Mexico Bill of Rights. At a
very base level this alone demonstrates the
substantive policy impact that the New Mexico

22
Supreme Court legislated, in excess of their delegated
legislative authority which was limited to general court
procedures that did “not abridge, enlarge or modify the
substantive rights of any litigant.” NMSA 1978 § 38-11, to say nothing of the protections of the Eighth
Amendment or the Due Process Clause of the
Fourteenth Amendment. The voters of New Mexico
and their Legislature, by adoption of the Amendment,
made it a substantive right of New Mexicans to file a
motion to request relief from the requirement to post
bond and the New Mexico Supreme Court modified
that substantive right by removing the filing of a
motion from the pretrial release process altogether.
Thus, contrary to over a century of protecting
the right to bail by sufficient sureties in the
Constitution of the State of New Mexico and contrary
to the will of the voters, the New Mexico Supreme
Court practically eliminated bail by sufficient sureties,
replacing the system with new rules that impose
greater liberty restricting conditions on all persons
without the option of less restrictive money bail. See
NMRA Rule 5-401.
The new rules mirroring the New Jersey
Statutes, see N.J.S.A. § 2a:162-16 through 18, set up
hierarchal process that must be followed by lower
Court judges. See NMRA Rule 5-401.
First, any defendant eligible for release under
Art. II § 13 of the New Mexico Constitution “shall be
ordered released unless the court makes written
findings or particularized reasons why the release will
not reasonably ensure the appearance of the defendant
as required” on personal recognizance or an unsecured
appearance bond (i.e., an unconditioned promise to
appear). NMRA Rule 5-401(B). Second, if the court
finds that release on personal recognizance or an

23
unsecured appearance bond will not provide the
requisite assurances, the court “may impose nonmonetary conditions of release” (emphasis added), but
“shall impose the least restrictive condition , or
combination of conditions” that are needed to provide
the requisite assurances. NMRA Rule 5-401(B). These
conditions
range
from
relatively
minimal
inconveniences to extreme restrictions on liberty. On
one end of the spectrum, a court may order the accused
to call pretrial services once a week. On the other end,
the court may order physical detention, remaining “in
the custody of a designated person,” or even returning
“to custody [in jail] for specified hours.” NMRA 5401(D). The court can additionally order that all of the
accused’s movements (even within the home) be
monitored through a GPS device worn around the
ankle 24 hours a day. Id.
The court may impose any combination of these
restrictions, including the most restrictive combination
of these conditions, without the state making any
heightened showing of their need. In other words,
although the court is directed to “the least restrictive”
combination of non-monetary conditions needed to
address the government’s interest; the New Mexico
Supreme Court’s rules requires no greater showing
and provides no greater procedural protections before
the state imposes house arrest with 24-hour
monitoring than when it requires weekly check-in calls.
The one condition the court may not consider at this
second stage is the imposition of monetary bail in
combination with, or in lieu, of non-monetary
conditions.
Finally, if the court finds that release subject to
any combination of the onerous non-monetary
measures outlined above will not “reasonably ensure

24
the appearance of the defendant as required”, the
Court then, and only then, “may require a secured
bond for the defendant’s release.” NMRA Rule 5401(E). Thus, the New Mexico Supreme Court’s rules,
contrary to the New Mexico Constitution, indicate that
monetary bail may be considered only to address flight
risk and only after the Court has already concluded
that house arrest with 24-hour monitoring is
insufficient to address flight risk. This is to say nothing
of the impacts to fundamental liberties like the right to
bear arms or to be free from the invasive searches of
drug and alcohol testing or required psychological
treatment. See NMRA Rule 5-504(D).
B. The District Court Proceeding
Having reviewed the law concerning immunities
extensively and being extensively familiar2 with the
standards for standing, Petitioner Darlene Collins,
having unnecessarily and nearly fatally suffered as a
result of the then brand new Supreme Court rules,
implemented only hours after her arrest, embarked
upon litigation in the Federal District Court of New
Mexico with the assistance of Petitioners Bail Bond
Association of New Mexico and several concerned
citizen legislators3 to address unconstitutional bail
Trial Counsel A. Blair Dunn had over 10 years’ experience
litigating in federal Courts and Dori E. Richards had more than 20
years’ experience litigating in Federal Courts, 18 of which had
been as an attorney for the Federal government.
2

The citizen legislators have consistently maintained that they
were not exercising any claim under institutional injury on behalf
of the legislature, instead they sought declaration of the violation
by the judiciary of the New Mexico Constitution as citizens
3

25
reform policy legislated without lawful authority by
the New Mexico Supreme Court. Petitioners, all of
them, have consistently maintained that not only did
they have standing and a colorable argument as to why
Respondents enjoyed no immunities, but they have
consistently maintained that their position on
immunities, standing and the unconstitutionality of the
New Mexico Supreme Court’s rules could be
vindicated without a modification or change in existing
law. Petitioners also erroneously believed that if ever
they could exercise their First Amendment rights to
speech and to petition the courts for redress without
fear of retaliation, that a case involving the courts
should be safe to do so. Instead, almost immediately,
Judicial Respondents sought to drive the case from the
courts by seeking Rule 11 sanctions against
Petitioners’ counsel, which resulted in sanctions
inexplicably against only one of their counsel, when
their legal team refused to abandon their good faith
claims.
Ultimately, the District Court determined on
the merits that “there is no right to money bail implied
within the Eighth Amendment,” Pet.App.93a despite
the continued proffer by Petitioners that in keeping
with Stack and Salerno that any bail other than the
least restrictive necessary, which must include the
availability of money bail, would be excessive and
therefore subject to scrutiny against the protection of
the Eighth Amendment. The District Court, then, took
this reasoning further to state that “purchasing
pretrial release with monetary bail does not implicate
fundamental rights under a substantive due process
representing their constituents by exercising their own standing
as citizens to have their government follow the law.

26
analysis,” Pet.App.100a despite a clear history of
sufficient sureties by money bail in New Mexico and
the recent retention of the same in the New Mexico
Constitution by the voters of New Mexico.
The District Court went on to decide that,
inconsistent with this Court’s and the Tenth Circuit’s
precedent, that Petitioners Bail Bonds Association of
New Mexico and the Legislator Petitioners lacked
standing. The District Court did determine that
Petitioner Collins did have standing, but went on to
find that Respondents enjoyed sovereign immunity for
their official act because prospective relief was not
applicable as there was not an “ongoing violation of
Federal law.” Pet.App.109a Respondents enjoy
“legislative immunity” for their rule-making that
allegedly “intruded on the exclusive province of the
New Mexico Legislature,” Pet.App.111a. And finally,
the District Court determined that that other judicial
Respondents enjoyed judicial immunity for the
administrative action of setting policy and contracting
for a tool that arguably further infringes upon the right
to bail that least restricts pretrial liberty.
Pet.App.110a-112a.
Importantly, in a later decision, the District
Court extrapolated that because the matter was a
political issue that the actions of one of the counsel
(who was not the only attorney that signed the
pleadings taking those actions) of Petitioners,
concerning that the lack of standing of some
Petitioners and the immunities of Respondents,
warranted Rule 11 sanctions. Pet.App.43a-64a.

27
C. The Tenth Circuit Decision
The Tenth Circuit affirmed. Pet.App.1a-39a. But
unlike the District Court, the Tenth Circuit did not
address the merits of whether or not the New Mexico
Supreme Court rules at issue were constitutional.
Pet.App.24a. Instead, the Tenth Circuit determined
that Petitioner Bail Bonds Association of New Mexico
lacked both first party associational standing and
third-party standing, Pet.App.12a-14a and determined
that the Legislator Petitioners lacked standing to
pursue a claim for institutional injury. Pet.App.14a15a. The Tenth Circuit did, likewise, affirm the
standing of Petitioner Collins, by also affirmed the
dismissal of her claims on the basis of sovereign,4
judicial and legislative immunities. Finally, the Tenth
Circuit affirmed the sanctions against undersigned
counsel, whose only differentiating fact from his cocounsel, who also signed the pleadings naming the
various parties to the proceeding, was a letter that
undersigned counsel sent to a committee of the New
Mexico Legislature in response to a letter from the
New Mexico Supreme Court Justice responsible for
the bail reform movement discussing this litigation
with the same Legislative Committee.

The Tenth Circuit chastised Petitioners for not “adequately
present(ing)” (App .19a and 21a) argument on sovereign immunity
but ignored that Petitioners sought a word extension to
adequately address the complex constitutional arguments and
Rule 11 arguments in a consolidated appeal which the Tenth
Circuit largely denied.
4

28
REASONS FOR GRANTING THE PETITION
As the self-described bail reform movement
continues its march around the United States the
conflict and controversy surrounding the movement
grows in its wake. In New Mexico, aside from the
significant constitutional issues and the matter of yet
another unique split on the bail issue among the
circuits, New Mexicans are left frustrated dealing with
the consequences such as high profile murders
perceived to be perpetuated by a catch and release
criminal justice system of questionable constitutionality
established by rules that are the subject matter of this
lawsuit. Far from being limited to the pure
constitutionality question present in other recent
petitions to this court representing a circuit split
between the Third, Sixth and now Tenth Federal
Courts of Appeals, New Mexicans face a perfect storm
of unique and novel dimensions for which review by this
Court is the only feasible hope for redemption.
The history of bail by sufficient sureties has been
presented ad nauseum in complete and appropriate
thoroughness by recent petitions and briefing to this
Court by amici to establish inarguably that bail and
how our courts handle this fundamental liberty is
critical to our system of justice. There is no argument
amongst the divergent viewpoints that excessive bail is
the denial of bail, but the circuit split between the Third
Circuit (Holland) and the Sixth Circuit (Walker) about
what may be required or allowed as sufficient surety
for the posting of bail so as not to be excessive is at the
heart of the controversy facing the county. Essentially
the question becomes, isn’t requiring the poor to sit in
jail because they lack the financial means to post
monetary secured bail unjust and excessive, versus the

29
alternative to make the system fair by eliminating
secured money bail from the system and requiring all
persons to secure pretrial freedom by imposing on them
non-monetary conditions of release that are arguably
greater deprivations of liberty with impacts appearing
to eliminate the presumption of innocence in favor of
treating all people as guilty even though they no longer
face full incarceration before trial.
The balance between protecting the liberty
interest of the poor from injustice because they are
poor and subjecting all persons unnecessarily to
unconstitutional restrictions on their liberty has
already been struck by the New Mexico Legislature in
a Constitutional Amendment overwhelmingly adopted
by the voters of New Mexico. A balance that further
ensured that the Eighth Amendment right, to avoid
excessive bail by allowing a person without financial
means to file a motion to be excused from posting
secured monetary bail, is precisely what the voters
adopted into the New Mexico Constitution, thus the
questions for this Court’s review do not stem from the
bail reform duly adopted by the State of New Mexico;
but rather from the ensuing policy reform legislated by
the New Mexico Supreme Court through their
rulemaking outside of the authority to adjudicate
disputes vested in them by the New Mexico
Constitution and outside of the legislative authority
delegated to them by the New Mexico Legislature.5
In addressing the worthiness and timeliness of certiorari review
by this Court it is respectfully offered that this matter appears set
to become at issue in an identical fashion in other jurisdictions. See
https://www.kshb.com/news/state/missouri/missouri-supremecourt-sets-new-rules-on-bail-conditions
and
https://www.courts.mo.gov/sup/index.nsf/d45a7635d4bfdb8f862566
2000632638/beec23ef4487304b86258367006ca1c6?OpenDocument
5

I.

30
THE APPLICATION OF LEGISLATIVE
IMMUNITY TO THE ACTIONS OF
THE
NEW
MEXICO
SUPREME
COURT, THE APPLICATION OF
JUDICIAL IMMUNITY TO THE NONADJUDICATORY ACTIONS AND THE
APPLICATION
OF
SOVERIGN
IMMUNITY WERE IN ERROR AND
SERVED TO INCORRECTLY AVOID A
CRITICAL
AND
FUNDAMENTAL
QUESTION REGARDING BAIL IN
NEW MEXICO’S CRIMINAL JUSTICE
SYSTEM

In avoiding the merits of whether or not
Petitioner Collins has suffered a deprivation of her
rights based upon the incorrect determination of the
application of immunities, the Tenth Circuit erred by
affirming the District Court’s determination that the
New Mexico Supreme Court’s bail reform rules, which
authorize monetary bail, but affirmatively require the
exhaustion of more restrictive non-monetary conditions
prior to release on monetary bail, did not impermissibly
restrict pre-trial liberty in violation of the Eighth
Amendment, the Due Process Clause and contrary to
the 2016 adopted Amendment to the New Mexico
Constitution. The Tenth Circuit’s decision leaves a
question that is critical and fundamental to New
Mexicans unanswered, and further confounds a circuit
split on the issue impacting all Americans.

31
A.

The Tenth Circuit’s Decision on
Legislative Immunity Conflicts with
this Court’s Decision in Supreme
Court of Virginia v. Consumers Union
of U.S., Inc.

The Tenth Circuit’s decision regarding
legislative immunity is at odds with this Court’s
precedent by incorrectly holding that the New Mexico
Legislature delegated complete legislative authority to
the Supreme Court to pass procedural rules as well as
the legislative authority to enact policy by rules that
impacted the substantive rights of litigants appearing
before the courts. In fact, the opposite is true, as the
powers of the New Mexico Supreme Court are limited
by the separation of powers provided for in the New
Mexico Constitution and by NMSA § 38-1-1, which
prohibits it from making any rule to “abridge, enlarge
or modify the substantive rights of any litigant.” The
Tenth Circuit thus erred in affirming the District
Court’s decision when it failed to give effect to the
unique separation of powers limitations at issue in this
case, as well as the prohibition codified by the
Legislature that prevents the Courts from engaging in
rulemaking activities that curtail or modify the
substantive rights of citizens. Read against this Court’s
decision in Supreme Court of Virginia v. Consumers
Union of U.S., Inc. the Tenth Circuit’s decision
conflicts with that precedent by failing to recognize
that if the New Mexico Supreme Court does not hold
exclusive legislative jurisdiction6 (in this instance they
“In any event, in this case the Virginia Court claims inherent
power to regulate the Bar, and as the dissenting judge below
indicated, the Virginia Court is exercising the State’s entire
legislative power with respect to regulating the Bar, and its
6

32
hold no jurisdiction over rules affecting the substantive
rights of litigants) then they are not entitled to
legislative immunity. “To find that [an action] has
exceeded the bounds of legislative power it must be
obvious that there was a usurpation of functions
exclusively vested in” another branch of government.
Tenney v. Brandhove, 341 U.S. 367, 378 (1951). Under
NMSA Section 38-1-1 it is obvious that the Legislature
retained exclusive legislative authority over the
substantive rights of litigants by expressly not
delegating that authority to the supreme court.
B.

The Tenth Circuit’s Decision on
Judicial Immunity Conflicts with this
Court’s Decision and Other Courts of
Appeals

As to judicial immunity, it is beyond argument
that the actions complained of in this action fall well
outside of the sphere for which the New Mexico
Judiciary enjoy immunity. “A judge is not immune from
liability for nonjudicial actions, i.e., actions not taken in
the judge’s judicial capacity.” Mireles v. Waco, 502 U.S.
9, 11 (1991) (citing Forrester v. White, 484 U.S. 219, 22729 (1988); Stump v. Sparkman, 435 U.S. 349, 360
(1978)). This important legal principle was recently
applied to bail in the context of suing members of the
judiciary in Schultz v. State, Case No. 5:17-cv-00270MHH (N.D. Ala. 2018) wherein the district court there
members are the State’s legislators for the purpose of issuing the
Bar Code. Thus the Virginia Court and its members are immune
from suit when acting in their legislative capacity. Supreme Court
of Virginia v. Consumers Union of U.S., Inc., 466 U.S. 719, 734
(1980). (emphasis added)

33
applied the guidance from the Eleventh Circuit that a
court looks to the “nature and function” of the act, “not
the propriety of the act itself, and consider[s] whether
the nature and function of the particular act is judicial.”
See ECF Doc. 198 p. 13 (applying McCullough v.
Finley, 907 F.3d 1324, 1331 (11th Cir. 2018). Under
McCullough, a court should consider:
the nature and functions of the alleged acts are
judicial by considering four factors:
(1) the precise act complained of is a
normal judicial function; (2) the events
involved occurred in the judge's
chambers; (3) the controversy centered
around a case then pending before the
judge; and (4) the confrontation arose
directly and immediately out of a visit to
the judge in his official capacity.
McCullough, 907 F.3d at 1331. None of the conduct
complained of fits within the Mireles definition of
judicial conduct warranting absolute judicial immunity.
C.

The Tenth Circuit’s Decision on
Sovereign Immunity Conflicts with
this Court’s and Other Courts of
Appeal’s Decisions

The District Court’s decision that “bail set at a
figure higher than the amount reasonably calculated to
fulfill” the government’s interests in the return of the
accused to trial “is excessive” (implicating the Eighth
Amendment) is not impacted by the exclusion of
monetary bail from consideration is profoundly wrong.

34
Stack v. Boyle, 342 U.S. 1, 4 (1951). Further, the
District Court’s decision that the Due Process Clause is
not implicated in the abolition of the monetary bail is
wholly inconsistent with this Court’s and other Courts
of Appeal’s decisions on the subject.
Thus, the
incorrect holding of the District Court and the refusal
of the Tenth Circuit to perform a merits analysis turns
the reasoning of the applicability of sovereign immunity
to this case on its head.
The lower courts correctly recognized
that while “states enjoy sovereign immunity from suit
under the Eleventh Amendment” that “immunity is not
absolute.” Muscogee (Creek) Nation v. Pruitt, 669 F.3d
1159, 1166 (10th Cir. 2012) Further, the lower courts
recognized that under Ex parte Young, 209 U.S. 123
(1908), “a plaintiff may bring suit against individual
state officers acting in their official capacities if the
complaint alleges an ongoing violation of federal law
and the plaintiff seeks prospective relief.”
Both
Petitioner Collins, as a putative class representative,
alleging an ongoing violation of the Eighth Amendment
and the Due Process Clause, and Petitioner BBANM,
as a putative class representative, alleging continuing
violation of the Due Process Clause through the
continued destruction of their industry sought
prospective relief enjoining the Respondents from
continuing the violation of federal law. Thus, it was
appropriate, to ask “a federal court, consistent with the
Eleventh Amendment, [to] enjoin state officials to
conform their future conduct to the requirements of
federal law.” Id.
Notably, it is the lower courts’ decisions
inconsistent with this Court’s and other Courts of
Appeal’s decisions on the issues of the Eighth
Amendment and the Due Process Clause that

35
confounds a proper sovereign immunity analysis. A
correct decision on the impacts of the abolition of
monetary bail under the Eighth Amendment and the
Due Process Clause yields no immunity to Respondents
under Ex parte Young.
Monetary bail has been the mechanism for
preserving the “traditional right to freedom before
conviction.” Stack, 342 U.S. at 4. Thus, this Court has
described bail as a “right” and a “constitutional
privilege” that safeguards pretrial liberties of the
presumptively innocent who provide sufficient security
to assure their appearance and do not endanger the
community. Id. The source of such right is the Eighth
Amendment, which prohibits “[e]xcessive bail,” along
with “excessive fines” and “cruel and unusual
punishments” (U.S. Const. amend. VIII) which applies
to states. See McDonald v. City of Chicago, 561 U.S.
742, 764 n.12 (2010); Baker v. McCollan, 443 U.S. at 144
n.3. This Court has ruled consistently that “bail
constitutes a fundament of liberty underpinning our
criminal proceedings” that “has been regarded as
elemental to the American system of jurisprudence.”
Sistrunk v. Lyons, 646 F.2d 64, 70 (3rd Cir. 1981). Both
the Supreme Court and Third Circuit have explained
that a state can violate the Bail Clause by restraining
pretrial liberty through either detention or “conditions
of release.” Salerno, 481 U.S. at 754; United States v.
Perry, 788 F.2d 100, 112 (3d Cir. 1986).
Just as the right to a speedy trial implies the
right to a trial; and just as the right to due process
implies the right to process; so too does the Eighth
Amendment’s prohibition of “[e]xcessive bail”
presuppose a right to bail. Indeed, “[l]ogic defies any
other resolution of the question.” Hunt v. Roth, 648
F.2d 1148, 1157. Such reading would violate principles

36
of constitutional interpretation, as “[i]t cannot be
presumed that any clause in the constitution is intended
to be without effect; and therefore such a construction
is inadmissible.” Marbury v. Madison, 5 U.S. 137, 174
(1803). The logical interpretation, then, is the Eighth
Amendment “implies, and therefore safeguards, the
right to give bail” before depriving the presumptively
innocent of pretrial liberty. United States v. Motlow, 10
F.2d 657, 659 (7th Cir. 1926) (Butler, Circuit J.). There
is no historical basis for the New Mexico Supreme
Court’s approach, that “lack of historical precedent” is a
“telling indication of the severe constitutional problem.”
Free Enter. Fund v. PCAOB, 561 U.S. 477, 505 (2010).
Indeed, this Court has subsequently emphasized that
the liberty restriction authorized in Salerno was
“narrowly focused” and “carefully limited.” Foucha v.
Louisiana, 504 U.S. 71, 81 (1992).
The lower courts’ decisions with regard to the
applicability of sovereign immunity also run afoul of the
Due Process Clause’s protection of liberty as it applies
to presumptively innocent individuals awaiting trial
(Pugh, 572 F.2d at 1056) By denying the option of
avoiding incarceration by jailhouse bond and imposing
these liberty-restricting conditions on Collins and other
presumptively innocent individuals without offering
them either the historically-required option of
monetary bail, or requiring any heightened showing,
the 2017 Rules run afoul of due process. The 2017 Rules
impose severe deprivations on presumptively innocent
individuals without any consideration of the historically
protected option of release on monetary bail. See
Medina v. California, 505 U.S. 437, 446 (1992)
(“Historical practice is probative of whether a
procedural rule can be characterized as fundamental”
for purposes of procedural due process). Moreover, the

37
2017 Rules impose these severe legal restrictions
without requiring any heightened showing from the
state. Imposing these conditions without any
heightened showing of need or any consideration of
monetary bail as an alternative runs short of both the
Mathews and Medina tests for due process. (See
Mathews v. Eldridge, 424 U.S. 319, 334 (1976)).
Realistically, “[t]here is simply no way for the
government to know whether [bail] would adequately”
ensure appearance because the 2017 Rules deny judges
the power to consider that option. See Hernandez v.
Sessions, 872 F.3d 976, 991 (9th Cir. 2017). Accordingly,
the 2017 Rules violate due process by “fail[ing] to
provide ‘adequate procedural protections’ to ensure
that” pretrial deprivations of liberty are “reasonably
related to a legitimate governmental interest.” Id.
The NM Supreme Court’s rules represent a
continued violation New Mexicans substantive rights
under the Due Process Clause. A right is protected by
substantive due process if it is “fundamental to [our]
scheme of ordered liberty” or “deeply rooted in this
Nation’s history and tradition.” McDonald, 561 U.S. at
767; see Washington v. Glucksberg, 521 U.S. 702, 721
(1997); Lutz, 899 F.2d at 267-68. Although a right need
only meet one of those standards to receive
constitutional protection, the right asserted by
Appellants—the right of option to post monetary bail
sufficient to ensure future appearance before subjection
to severe liberty deprivations—satisfies both prongs of
the inquiry. This Court has accordingly recognized the
fundamental place of bail, describing it as “basic to our
system of law,” Schilb v. Kuebel, 404 U.S. 357, 365
(1971), and a “constitutional privilege” to which pretrial
defendants are “entitled,” United States v. Barber, 140
U.S. 164, 167 (1891).

II.

38
THE TENTH CIRCUIT’S DECISION
REGARDING
THE
SANCTIONS
AGAINST ONE OF THE ATTORNEY’S
RESPONSIBLE FOR THE INITIATION
OF THE LITIGATION CONFLICTS
WITH
DECISIONS
FROM
THIS
COURT AND OTHER COURTS OF
APPEALS

Undersigned counsel has consistently maintained
that there is not just an objectively reasonable goodfaith basis to argue that Petitioners Bail Bonds
Association of New Mexico should be granted standing,
but under the jurisprudence of this Court and the
Tenth Circuit they already enjoy standing. Likewise,
undersigned counsel maintained that the Legislator
Petitioners should have been afforded standing to
address the violations of the State Constitution and
statutorily delegated authorities as citizen legislators
addressing the violation as citizens themselves on
behalf of their citizen constituents. As to immunities,
undersigned counsel has consistently maintained (with
the support of other learned counsel) that judicial
immunity was inapplicable to the non-adjudicatory
actions of any of the Respondents and that legislative
immunity was inapplicable to the New Mexico Supreme
Court Respondents because they acted outside of their
delegated legislative authority and their legislative
authority was not exclusive; precluding legislative
immunity under this Court’s decision in Supreme Court
of Virginia v. Consumers Union of U.S., Inc. Both the
decisions in this regard may be accurately reduced to
the holding that it is unacceptable to sue the judiciary
in any circumstance regardless of whether or not they
are acting unconstitutionally.

39
As is demonstrated in this Petition and
extensively throughout the briefing below, which was
signed by multiple attorneys, Petitioners had a wellresearched objective basis for filing the litigation and
including both the Petitioner BBANM and the
Legislator Petitioners.
For instance, the Tenth Circuit relied heavily on
the failure of all Appellants’ counsel to recognize
Kowalski v. Tesmer, 543 U.S. 125 (2004) before joining
Petitioner BBANM to the suit but provided no
rationale as to why undersigned counsel is solely
responsible for not recognizing precedent that was
never cited to by either the District Court or the
Respondents. Moreover, Petitioners cited and
distinguished Kowalski in their Reply Brief.
Likewise, the Tenth Circuit upheld the concept
that joining Legislator Respondents was done for
improper or political purpose in clear violation of Kerr
v. Hickenlooper, 824 F.3d 1207 (10th Cir. 2016) such
that sanctioned counsel was again held solely
responsible. This holding was clearly in contravention
of the clear protection of an attorney to advance
arguments to extend, overturn or modify precedent. In
fact, a political motivation is not a de facto disqualifier
for advancing legislators as plaintiffs. Using Rule 11 as
a stick to punish a singled-out attorney for attaching
plaintiff legislators with a reasonable objective basis for
participating in the litigation whether or not there is a
political purpose is improper because “Rule 11 should
not be used to discourage advocacy, including that
which challenges existing law.” White v. Gen. Motors
Corp., 908 F.2d 675, 683 (10th Cir. 1990). Petitioners
understand and accept that Rule 11 is designed to
protect against frivolous filings, but many of the most
important legal reforms have been achieved through

40
the pursuit of litigation that depended on legal theories
incompatible with existing precedent. Until legislative
reforms began to make headway, most major civil
rights victories were the result of petitions to the
judiciary to reverse existing, and often longstanding,
binding precedent. Appellants in this case advanced
legal theories in good faith, cited to legal authority, and,
advanced a theory of constitutional law and immunities
that is not necessarily currently accepted, but that is
colorable. There is nothing in the record to justify
affirming sanctions against just one of the trial counsels
bringing this case with these parties, the test is not
whether a litigant's interpretation of the cases relied
upon proves to be wrong, but whether the
interpretation is “‘so untenable as a matter of law as to
necessitate sanction.”’ Id. (quoting Mareno v. Rowe, 910
F.2d 1043, 1047 (2nd Cir. 1990), cert denied, 498 U.S.
1028 (1991)
In the situation, wherein an attorney advances a
case that criticizes the actions of the judiciary and in
turn tests the balance between judicial independence
and judicial accountability, the Tenth Circuit
understandably erred on the side of judicial
independence. This lawsuit represented the most
realistic avenue for New Mexico citizens (in the form of
everyday citizens, citizen legislators and a longstanding citizen industry) to hold their judiciary
accountable to following the laws of the State and the
State Constitution, not to mention the will of the voters
in adopting an Amendment that sets out a different
process than the one legislated by the NM Supreme
Court.7
“This member of the Government was at first considered as the
most harmless and helpless of all its organs. But it has proved that
7

41
The Tenth Circuit, thus, in affirming sanctions
against counsel seeking to hold the State Judiciary
accountable through a petition to the court for redress
erred in insulating the New Mexico Judiciary on the
basis of standing and immunity as noted by Thomas
Jefferson:
To consider the judges as the ultimate arbiters
of all constitutional questions [is] a very
dangerous doctrine indeed, and one which would
place us under the despotism of an oligarchy.
Our judges are as honest as other men and not
more so. They have with others the same
passions for party, for power, and the privilege
of their corps . . . and their power the more
dangerous as they are in office for life and not
responsible, as the other functionaries are, to the
elective control.
Moreover, this danger of an unaccountable judiciary
that Petitioners’ counsel sought to address by the filing
of the lawsuit is what Robert Yates writing as “Brutus”
in Anti-Federalist Papers No. 11 warned against:
The real effect of this system of government, will
therefore be brought home to the feelings of the
people, through the medium of the judicial
the power of declaring what the law is . . . by sapping and mining
slyly and without alarm the foundations of the Constitution, can do
what open force would not dare to attempt.” From Thomas
Jefferson to Edward Livingston, 25 March 1825,” Founders
Online, National Archives, version of January 18, 2019.
https://founders.archives.gov/documents/Jefferson/98-01-02-5077

42
power. It is, moreover, of great importance, to
examine with care the nature and extent of the
judicial power, because those who are to be
vested with it, are to be placed in a situation
altogether unprecedented in a free country.
They are to be rendered totally independent,
both of the people and the legislature, both with
respect to their offices and salaries. No errors
they may commit can be corrected by any power
above them, if any such power there be, nor can
they be removed from office for making ever so
many erroneous adjudications.
…
When the courts will have a precedent
before them of a court which extended its
jurisdiction in opposition to an act of the
legislature,, is it not to be expected that they
will extend theirs, especially when there is
nothing in the constitution expressly against it?
and they are authorised to construe its meaning,
and are not under any controul? This power in
the judicial, will enable them to mould the
government, into almost any shape they please.
(emphasis added)
Robert Yates, “Essay No. 11,” Anti-federalist Papers,
first published in the New York Journal, March 20,
1788. Available at www.constitution.org.

43
A. The Tenth Circuits Decision Regarding
Standing Conflicts With Decisions From
This Court and the Tenth Circuit and
Therefore Cannot Form the Basis for
Upholding Sanctions.
The Tenth Circuit relied heavily on Kowalski
(rejecting second “close relationship” and third
“obstacles” prongs of third-party standing test as to
attorneys seeking to represent interests of indigent
clients) to reach the conclusion that Petitioner BBANM
did not have a basis for standing and that there was no
objective basis for including them in the lawsuit in the
first place. This decision was reached despite the fact
that neither the District Court nor the Respondents
cited to Kowalski8. In fact, Petitioners were the first to
cite to and discuss Kowalski to instead distinguish that
third-party standing is recognized in Tenth Circuit
under Aid for Women v. Foulston, 441 F.3d 1101 (10th
Cir. 2006)(approving third-party standing in patient
physician context). In this regard the Tenth Circuit
erred by ignoring the Circuit’s own precedent in Aid
for Women and by failing to provide any rationale for
why that case is not applicable here.
Additionally, as to the standing of Peitioner
BBANM, the Tenth Circuit erred concerning the first
party standing of BBANM plaintiffs on associational
grounds by incorrectly limiting their analysis to the fact
that BBANM’s members are not criminal defendants.
These Petitioners however, cited precedent and
supported the notion that Petitioners were asserting
first-party associational standing with regard to the
Kowalski was relied upon by the Third Circuit in Holland v.
Rosen, 895 F.3d 272 (3d Cir. 2018) for a different result.

8

44
destruction of their industry. This was supported by
the precedent supplied to the Tenth Circuit and
disregarded without explanation of Pierce v. Soc’y of
the Sisters of the Holy Names of Jesus & Mary, 268
U.S. 510 (1925); see id. at 535 (“Appellees are
corporations, and therefore, it is said, they cannot claim
for themselves the liberty which the Fourteenth
Amendment guarantees . . . . But they have business
and property for which they claim protection. These are
threatened with destruction through the unwarranted
compulsion which appellants are exercising over
present and prospective patrons of their schools. And
this court has gone very far to protect against loss
threatened by such action.”). Petitioners correctly
pointed out to the Tenth Circuit that citizens, such as
BBANM’s members, have a right to be protected from
arbitrary action of government. The Due Process
Clause is intended to protect citizens from arbitrary
and oppressive exercise of power by the actions of
government employees, that curtail a constitutional
right. This Court has opined as to the constitutionally
protected property interest in engaging in one’s chosen
profession. Barry v. Barchi, 443 U.S. 55 (1979).
Petitioner BBANM has both third and first party
standing and the Tenth Circuit erred by failing to
recognize their standing. Importantly for the Tenth
Circuit to hold otherwise with regard to associational
standing conflicts with this Court’s decision in Hunt v.
Washington State Apple Advert. Comm’n, 432 U.S. 333
(1977).
Going yet further with respect to first-party
standing the Tenth Circuit erred in failing to recognize
that the first-party standing of the Legislator
Respondents was not derived from instutional injury
but rather from the direct injury to the citizens of New

45
Mexico of having one branch of their government usurp
the powers delegated exclusively to the Legislature.
The Tenth Circuit’s reliance on Kerr v. Hickenlooper,
824 F.3d 1207 (10th Cir. 2016) was misplaced and this
case presents a distinguishable situation warranting
first impression review. Petitioners’ claim for legislator
standing is premised on the New Mexico Supreme
Court’s complete usurpation of power in violation of the
separation of powers. Unlike in any of the other cases
cited or recognized by the Tenth Circuit, including
especially Kerr v. Hickenlooper, 824 F.3d 1207 (10th Cir.
2016)(denying individual legislator standing to
challenge Colorado’s anti-tax TABOR amendment)
(relied upon by the trial court below), here there is a
specific separation of powers component. The present
case is distinguishable and should have been treated
differently than the situation in Kerr given the
separation of powers component and the unavailability
of any other adequate remedy to address a usurpation
of power by the high court of New Mexico from the
New Mexico Legislature. The extra-judicial action of
the New Mexico Judiciary, and the Tenth Circuits’s
affirmance serves to cut off the New Mexico citizens’
abilitity, including her citizen legislators, to seek review
of the unconstitutional extra-judicial actions of her
courts.
Petitioners agree that, normally, state
constitutional questions, in particular those concerning
separation of powers, interpretation of state
constitutions or delegation of powers by a legislature,
do not fall within the province of the federal judiciary.
This is almost entirely because it is left to the supreme
courts of the respective states to address those
concerns. Nevertheless, this case presents a unique set
of circumstances where state legislators, among others,

46
are challenging the actions of members of the state
judiciary on behalf of the citizenry they represent, not
the body of the Legislature.
This Court has, to the contrary, stated:
When challenges to state action respecting
matters of ‘the administration of the affairs
of the State and the officers through whom
they are conducted’[] have rested on claims
of constitutional deprivation which are
amenable to judicial correction, this Court
has acted upon its view of the merits of the
claim.
Baker v. Carr, 369 U.S. 186, 229, (1962). This Court in
Baker specifically alluded to “federal courts’ power to
inquire into matters of state governmental
organization.” If aspects of state governmental
organization result in constitutional deprivations, the
Federal Courts should rule upon the merits such
deprivations including as here, whether the state’s
judiciary has the right to enact legislation causing those
deprivations. The Tenth Circuit failed to properly
consider that the Respondents’ actions invading the
province of the Legislature protected by New Mexico’s
separation of powers, and in failing to recognize bail as
a substantive right of New Mexico citizens, failed to
properly consider that the Respondents’ actions were
violative of the prohibition contained in the delegation
to the New Mexico Courts by the Legislature in NMSA
§38-1-1.

47
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
A. Blair Dunn
Counsel of Record
WESTERN AGRICULTURE, RESOURCE AND
BUSINESS ADVOCATES, LLP
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060

